U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 10, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Bourdon v. Department of Homeland Security, No. 20-1636
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 21, 2021.
The government’s response is now due, after two extensions, on August 25, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 24, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1636
BOURDON, DOUGLAS
DEPARTMENT OF HOMELAND SECURITY, ET AL.

MARGARET T. ARTZ
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 WORLD TRADE CENTER
250 GREENWICH STREET
NEW YORK, NY 10007
MARK C. FLEMING
WILMER CUTLER PICKERING HALE & DORR
LLP
60 STATE STREET
BOSTON, MA 02109
617-526-6909
MARK.FLEMING@WILMERHALE.COM
IRA J. KURZBAN
KURZBAN KURZBAN WEINGER TETZELI &
PRATT, P.A.
131 MADEIRA AVENUE
CORAL GABLES, FL 33134
305-444-0060
IRA@KKTPLAW.COM
THOMAS G. SPRANKLING
WILMER CUTLER PICKERING HALE AND
DORR LLP
2600 EL CAMINO REAL
SUITE 400
PALO ALTO, CA 94306
202-663-6000
THOMAS.SPRANKLING@WILMERHALE.COM

